Please read this information carefully. This is your copy of the Professional Platinum VISA Credit Card Agreement

1. Introduction. This Agreement covers this Professional Platinum VISA Credit Card
issued by iQ Credit Union (“Lender”). In this Agreement the words “you,” “your,” “yours,”
“applicant,” and “Borrowers” mean the organization or member to or for whom the Cards
are issued under this Agreement. The words “we,” “us,” “our,” and “Lender” means
iQ Credit Union. The word “Card” means any one or more credit cards issued under
this Account. The following terms and conditions govern this Account.
2. You Promise to Pay. You promise to pay us in United States dollars, by cash, check,
or money order as provided in this Agreement, all such amounts, plus FINANCE CHARGES,
which arise from use of the Card or Account by you or any other person, and to be jointly
and severally liable with such a person, unless such other person does not have actual,
implied, or apparent authority for such use, and you received no benefit from the use.
This includes any loan requests for credit card purchases, payments to a third party, or
for deposit to a deposit, share, or share draft account of yours, or any co-applicant at the
Credit Union. You agree to pay advances requested by any co-applicant the same as if you
asked for the loan and it was paid to you.
3. Purchases and Cash Advances. You must sign the Card to use it. Once you have signed
the Card, you can use it to buy or lease goods or services, wherever the Card is honored,
up to the full amount of your credit line. You also may use your Account and Card to get
cash advances from us or participating financial institutions. You may use your Card and
personal identification number (“PIN”) to obtain cash advances at automated teller machines
(“ATMs”) designated with the VISA or Plus System networks. The periodic statement will
identify the merchant or financial institution, at which transactions were made, but sales,
cash advances, credit, or other slips cannot be returned with the statement. We may impose
a reasonable charge for photocopies of slips you may request.
4. Convenience Checks. If we approve, you may obtain advances under your Account
by writing preprinted loan drafts (“convenience checks”) that we supply to you. Your use
of convenience checks will be shown as credit advances on your periodic statement. We
may not honor the convenience check if it is postdated, payment of the check will exceed
your credit limit, a convenience check is signed by a person without authorized access,
the amount of the check is less than the minimum required amount, your Account has
been terminated or suspended, or any convenience checks have been reported lost or
stolen. You may stop payment on a convenience check if you provide us with the exact
information describing the convenience check. If you give us incorrect information, we
will not be responsible for failing to stop payment. You understand there may be a charge
for convenience check printing and charges for stop payment requests, returned items,
check copies, and other fees or costs we incur in handling your convenience checks. Our
liability for a wrongful dishonor is limited to your actual losses; however, a dishonor for the
reasons stated above is not a wrongful dishonor.
5. Rebate Program. You may earn a 1% cash rebate on your account if you meet the
following requirements.:
a. Cash Rebate on Net Purchases. You may earn a 1% cash rebate on net purchases
(purchases less returns for credit) made during the rebate period in which the net
purchases posted to your account. The cash rebate will be calculated on cumulative
net purchases posted to your account for the prior rebate period. To illustrate, let
us assume during the first rebate period of the year (January –March) your total net
purchases equal $3500. In this example, we would multiple $3500 by 1% which
would equal a cash rebate of $35
There are four rebate periods in each calendar year. January 1 through March 31, April
1 through June 30, July 1 through September 30 and October 1, through December
31. The cash rebate for the prior rebate period will be credited to your checking or
savings account by the 15th day of the month following the end of the prior rebate
period. Your account must remain open and in good standing order to receive the cash
rebate. If at any time your account is assessed a late fee, is closed or is in default, you
will forfeit all cash rebates accrued through the calendar quarter in which your account
was closed, or the delinquency or default occurred. The terms and conditions of this

rebate program may be changed or cancelled at any time and for any reason without notice.
6. Minimum Periodic Payment. Payments received at the mailing address shown on
your statement on any business day by 5:00 P.M. Pacific Time will be credited to your
Account as of that date; payments received by mail at that address after 5:00 P.M. Pacific
Time, or on a weekend or federal holiday will be posted to your Account as of the next
business day. Payment crediting to your Account may be delayed up to five (5) days if your
payment is received by mail at any other address or not accompanied by the remittance
portion of your Account statement.
7. Periodic Statements. If, at the end of any monthly periodic interval which we may determine
the “Billing Cycle,” you have an outstanding undisputed debit or credit balance in your Account,
or if there is any FINANCE CHARGE imposed with respect to your Account, we will send you a
periodic statement regarding the Account for that Billing Cycle. The statement will show any
purchases, cash advances, payments, and credits made to your Account during the Billing Cycle,
as well as your “New Balance,” any FINANCE CHARGE, any late charge, or other charges. You
may elect to receive your statement information electronically. Your statement also will identify
the “Required Payment Due” you must make for that Billing Cycle and the date it is due. You may
pay in full for all your purchases and cash advances each month or you may repay in monthly
installments. You agree to retain for statement verification copies of transaction slips resulting
from each purchase, each advance, and other transaction on your Account. Unless you notify
us of a billing error as described below, you accept your monthly statement as an accurate
statement of your Account with us.
8. Credit Line. This Agreement will constitute a revolving line of credit, and we will advise you
of the amount of your credit line. That amount will be the maximum amount you may have
outstanding at any one time. You agree not to attempt to obtain more credit than the amount
of your credit line. However, if you temporarily exceed your credit line, you agree to pay any
overlimit fees and repay the excess immediately, even if we have not yet billed you. Obtaining
such credit does not increase your credit line. We retain the right to increase or decrease your
credit line at any time for any reason. Any increase or reduction on the limit of your credit line
will be shown on your monthly statement or by separate notice together with any changes in
the applicable minimum monthly payments. The minimum credit limit is $2,500.
9. Circumstances Under Which a Finance Charge Will Be Imposed. The total outstanding
balance of purchases and cash advances in the Account on the closing date of a Billing Cycle,
including any FINANCE CHARGE will be shown on the Periodic Statement for that billing cycle
as the “New Balance.”
a. Purchases. A FINANCE CHARGE will be imposed on the unpaid portion of purchases
included in the New Balance when your New Balance is not paid in full by the due date
shown on your periodic statement. This “grace period” allows you to avoid a FINANCE
CHARGE on purchases for a billing cycle. However, if you do not pay the New Balance
for purchases within the grace period, your FINANCE CHARGE will accrue on any unpaid
purchase transactions from the first day of the billing cycle.
b. Cash Advances. A FINANCE CHARGE will be imposed on cash advances from the date
each cash advance is made. There is no time period within which to pay to avoid a
periodic FINANCE CHARGE on cash advances. In addition, a Cash Advance Fee (FINANCE
CHARGE) equal to two percent (2%) of the advance (or $5.00, whichever is greater), will
be applied to each cash advance.
10. Method Used to Determine the Balance on Which the FINANCE CHARGE May Be
Computed. We figure the FINANCE CHARGE on your Account by applying the Periodic Rate to
the “Average Daily Balance” of purchases and cash advances for your Account (not including
current transactions). To get the “Average Daily Balance” we take the beginning balance of
your Account each day, add any new purchases or cash advances, and subtract any payments
or credits, unpaid FINANCE CHARGES and unpaid late charges. This gives us the daily balance.
Then, we add up all the daily balances for the billing cycle and divide the total by the number
of days in the billing cycle. This gives us the “Average Daily Balance.

11. Method of Determining the Amount of the FINANCE CHARGE. We figure the
FINANCE CHARGE for purchases and cash advances by multiplying the Average Daily
Balance of purchases and cash advances by the number of days in the Billing cycle
and then by the applicable periodic rate. The FINANCE CHARGE for any Billing Cycle
will be the sum of the FINANCE CHARGE for purchases and the FINANCE CHARGE for
cash advances. However, the portion of your balance that is the result of purchases
has a different treatment. If you paid the entire New Balance shown on the previous
monthly statement by the payment due date shown on that statement, the portion of
the New Balance shown on the current statement that is attributable to purchases
that is paid by the payment due date shown on that statement will be excluded from
the calculation of the balance each day. For this purpose, payment will be applied
first to unpaid FINANCE CHARGE, then to unpaid purchases and cash advances from
prior billing statements, then to unpaid purchases and cash advances from the current
billing statement. At our option, the minimum payment may be applied first to the
portion of the balance that is subject to the lowest interest rate. Payments in excess
of the minimum payment will be applied first to the portion of the balance that is
subject to the highest rate..
12. Periodic Rate and Corresponding ANNUAL PERCENTAGE RATE. The Periodic
Rate that is used to compute the FINANCE CHARGE and the corresponding ANNUAL
PERCENTAGE RATE is variable, and will change based on changes in an index, which is
the Prime Rate quoted on the 15th day of the last month of the prior quarter as published
in The Wall Street Journal (Western Edition). We add a margin of 4.99 percentage points
to the index to obtain the ANNUAL PERCENTAGE RATE. The ANNUAL PERCENTAGE RATE
includes only interest and not other costs. The ANNUAL PERCENTAGE RATE is divided
by 365 to produce the daily Periodic Rate. The Periodic Rate and ANNUAL PERCENTAGE
RATE that will apply to your Account will be disclosed on the notice that accompanies
(and is a part of) this Agreement when you open your Account. The ANNUAL PERCENTAGE
RATE will in no event be higher than 18%, over the life of the credit line. The rate will
be adjusted on the twenty fifth day of each calendar quarter (January 25, April 25,
July 25, and October 25).
13. Conditions Under Which Other Charges May Be Imposed. We may impose the
following fees and charges on your Account:
a. Annual Fee. An annual fee of $25 (per loan) will be charged to your Account
each year.
b. Cash Advance Fee. The fee (FINANCE CHARGE) for a cash advance is the greater
of 2.00% of the cash advance amount or $5.00.
c. Late Fee. A late fee of $25 will be imposed when any payment is 15 days past due.
d. Miscellaneous Photocopying. If you request a copy of a sales draft or other
document, we may charge your Account $5 per copy and $35 per hour for
research. These charges cover the costs of locating, copying, and delivering
the documents to you. If a request is related to a billing error and an error is
found, we will reverse any photocopying charges.
e. Replacement Card Charge. A $5 charge per card will be imposed for each
replacement card you request, regardless of the reason.
f. Convenience Check Stop Payment. A $25.00 charge will be imposed for each
convenience check stop payment request (includes verbal requests).
g. ATM Surcharges. If you use an ATM that is not operated by us, you may be
charged an ATM surcharge by the ATM operator or an ATM network utilized for
such a transaction. The ATM surcharge will be charged to your account if you
elect to complete the transaction.
h. Fees and Costs. We may pay someone else to help collect your Account if you
do not pay. You agree to pay us all costs to collect your Account, including
court costs, reasonable attorney fees and costs, and collection agency costs, if

applicable, whether or not there is a lawsuit, and fees on any appeal and fees
for bankruptcy proceedings, appeals, and any post judgment collection services,
if applicable. These fees and costs may be added to your loan balance and bear
interest at the ANNUAL PERCENTAGE RATE applicable at that time.
14. Foreign Transaction Fee: Purchases made in foreign countries will be billed to you
in U.S. dollars. The currency conversion rate for international transactions as established
by VISA International, Inc. is a rate selected by VISA from the range of rates available
in wholesale currency markets for the applicable central processing date, which rate
may vary from the rate VISA itself receives, or the government mandated rate in effect
for the applicable central processing date. In addition, you will be charged a Foreign
Transaction Fee of up to 1% of the transaction amount for any card transaction made
in a foreign country.
15. Security Interest. To secure your Account, you grant us a purchase money security
interest under the Uniform Commercial Code in any goods you purchase through your
Account. If you default, we will have the right to recover any of these goods, which
have not been paid for through application of your payments in the manner described
in Section 11. Except for real estate loans or loans secured by a dwelling, collateral
securing other loans with us also may be used to secure this Account. You also pledge
all of your present and future Credit Union accounts and any earnings thereon as security
for obligations under your Account.
16. Conditions of Card Use. The use of your Card and Account are subject to the
following conditions:
a. Ownership of Cards. Any Card or other credit instrument or device which we
supply to you is our property and must be returned to us, or to any person whom
we authorize to act as our agent, or to any person who is authorized to honor the
Card, immediately according to instructions. The Card may be repossessed at
any time in our sole discretion without demand or notice. You cannot transfer
your Card or Account to another person. You may not use the Card for any illegal
or unlawful transactions, and we may decline to authorize any transaction that
we believe poses an undue risk of illegality or unlawfulness.
b. Honoring the Card. Neither we nor merchants authorized to honor the Card will
be responsible for the failure or refusal to honor the Card or any other credit
instrument or device we supply to you. If a merchant agrees to give you a
refund or adjustment, you agree to accept a credit to your Account in lieu of a
cash refund.
c. Notices and Payments. All notices will be sent to your address as shown in the
application. You agree to advise us promptly if you change your mailing address.
All payments should be mailed to us at the remittance address shown on your
monthly statements. Payments received at that address will be credited to your
Account as of the date received. Payments mailed must reach our office by
the due date. Where the due date falls on a weekend or holiday, payments are
due the last working day prior to the due date. We can accept late payments
or partial payments, or checks, drafts, and money orders marked “payment in
full,” without prejudice to our rights under this Agreement, which are hereby
explicitly reserved.
d. Personal Identification Number. We may issue you a Personal identification
Number (“PIN”) for using your Card to obtain cash advances at automatic
teller machines (“ATMs”). These numbers are issued to you for your security
purposes. These numbers are confidential and should not be disclosed to third
parties. You are responsible for safekeeping your PIN. You agree not to disclose
or otherwise make available your PIN to anyone not authorized to sign on your
Accounts. To keep your Account secure, please do not write your PIN on your
Card or keep it in the same place as your Card.
17. Default. You will be in default under this Agreement if any of the following occur:
(a) Any minimum payment is not made when due; (b) You become insolvent, bankrupt,
or you die; (c) You violate any part of this Agreement, or any other agreement with us;
or (d) if we reasonably deem ourselves insecure on your credit line. We will notify you
in writing of any such action as soon as practical if it occurs. Upon default, we may
declare the entire unpaid balance immediately due and payable, and you agree to pay

that amount plus any attorney’s fees and costs incurred by us. We can delay enforcing any
right under this Agreement without losing that right or any other right.
18. Credit Information/Financial Statements. You authorize us to release information to
others (e.g., credit bureaus, merchants, and other financial institutions) regarding the status
and history of your credit line. You agree to provide us, at any time we deem necessary, with a
current financial statement and/or a new credit application upon request. You authorize us to
make or have made any credit, employment, and/or investigative inquiry we deem appropriate
for the extension of credit, account maintenance, or collection of amounts owing on the Account
directly or through a credit reporting agency.
18.1 You agree to advise us promptly if you change your mailing address. We can accept address
corrections received from th U.S. Postal Service or from any authorized user. All written notices
and statement from us to you will be sent to your address as it appears on our records. Written
notices and inquiries from you must be sent to us at:
iQ Credit Union
PO Box 1846
Vancouver, WA 98668-1846
19. Loss or Theft of VISA Platinum Credit Card - Liability for Unauthorized Transactions.
You agree to notify us immediately, orally, or in writing, at iQ Credit Union, P.O. Box 1846,
Vancouver, Washington 98668-1846, or telephone (360) 695-3441, or (800) 247-4364 of the
loss, of the theft, or the use without your permission of any Card or other credit instrument or
device which we supply to you. After normal Credit Union hours and on weekends and holidays,
phone (360) 694-5463 or (800) 999-3441 and then notify the Credit Union at the first opportunity
during business hours. If you notify us of your lost or stolen Card, you will not be liable for any
losses. This liability exclusion will apply provided you were not grossly negligent or fraudulent
in handling your Card, otherwise your liability for unauthorized Professional Platinum Visa Credit
Card transactions may be up to $50.00.

Professional
Platinum
Visa
Credit Card
Agreement and
Regulation “Z”
Disclosures

20. Termination. Your eligibility for this credit line is determined by our loan policy and may
be terminated at our sole discretion, without demand or notice. You may close your credit line
at any time by notifying us in writing and returning all Cards cut in half. If you terminate this
Agreement or if we terminate or suspend your credit privileges, the provisions of this Agreement
and your liability hereunder shall otherwise remain in full force and effect until you have paid
us all sums due us under this Agreement and returned all Cards.
21. Severability. If any provision of this Agreement is held invalid, all provisions that are
severable from the invalid provision remain in effect.
22. Acknowledgment and Amendments. You understand and agree to the terms and conditions
in this Agreement and the Fair Credit Billing Notice. You acknowledge that you have received a copy
of this Agreement and Disclosure and the Fair Credit Billing Notice. We reserve the right to amend
the terms of this Agreement at anytime as permitted by and subject to any limitations and notice
requirements of applicable law.
23. Governing Law. This Agreement will not take effect until it is approved by us. This Agreement
shall be governed by the laws of the State of Washington.

Call the Credit Union: 360-695-3441
Outside the area: 800-247-4364
Visit us at : www.iQcu.com

3/16

ICN032516

